IN THE SUPREME COURT OF THE UNITED STATES

RICHARDS, JAMES W., IV
Petitioner
No: 19-0055

vs.
MATTHEW P. DONOVAN, ACTING SEC. OF THE AIR
FORCE, ET AL.
WAIVER

The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
July 17, 2019
cc:
MARK C. BRUEGGER
AIR FORCE LEGAL OPERATIONS
AGENCY
1500 WEST PERIMETER ROAD
SUITE 1100
JOINT BASE ANDREWS, MD 20762

